C'OCKLE

2311 Douglas Street CA . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B etek contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-440

MINERVA SURGICAL, INC.,
Petitioner,
v.
HOLOGIC, INC., et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICI CURIAE OF
INTELLECTUAL PROPERTY PROFESSORS IN SUPPORT OF PETITIONER in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2490 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this Sth day of November, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Zz 2. Z d,
RENEE J. GOSS 0. ( heed ta ‘6
Notary Public

My Comm. Exp. September 5, 2023

 

Affiant 40235
